No. 20-6643

In the

Supreme Court of the United States
ADRIAN MCCRAY,
Petitioner,
v.
SCOTT LEWIS, WILLIAM BUTLER, LEROY
CARTLEDGE, and BRIAN STERLING,
Respondents,

I hereby certify that pursuant to 28 U.S.C. ยง 1746 a copy of the herein below
listed pleading was served upon Petitioner, proceeding pro se, pursuant to Supreme
Court Rule 29 by depositing in the United States Mail, proper postage affixed thereto,
a true and accurate copy thereof on January 19, 2021 as follows:
PLEADING(S):

Brief in Opposition to Petition for Writ of Certiorari
Certificate of Word Count

PARTY(IES)
SERVED:

Adrian McCray, #319977
P.O. Box 2039
Ridgeland, S.C. 29936

Signature page follows

I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted,
s/ Charles F. Turner, Jr.
Charles F. Turner, Jr. (Fed ID#05849)
Willson Jones Carter & Baxley, P.A.
325 Rocky Slope Road
Suite 201
Greenville, South Carolina 29607
cfturner@wjcblaw.com
(864) 672-3711
Counsel for Respondents
January 19, 2021
Greenville, South Carolina

